No. 19A
IIN
N THE
THE

'upreme
Supreme Court of the liniteb
United iptato
States
ROBERT C. STEINER
STEINER AND WENDY
WENDY STEINER-REED,
STEINER-REED,
ROBERT

Applicants,
v.
V.

UTAH
UTAH STATE
STATE TAX
TAX COMMISSION,
COMMISSION,

Respondent.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rules 29.3 and 29.5(b), I, Neal Kumar Katyal, a
member of the Bar of this Court, hereby certify that on October 17, 2019, a copy of
the foregoing was served by e-mail and United States mail, postage prepaid to the
following:
Erin T. Middleton
Assistant Solicitor General
Stanford E. Purser
Deputy Solicitor General
John C. McCarrey
Mark E. Wainwright
Assistant Attorneys General
Sean D. Reyes
Utah Attorney General
P.O. Box 140858
Salt Lake City, Utah 84114-0858
Counsel for Respondent

I further certify that all parties required to be served have been served.

-'I

Date: October 17, 2019
Neal Kumar Katyal

